STATE OF NEW YORK
OFFICE OF THE ATTORNEY GENERAL
LETITIA JAMES

BARBARA D. UNDERWOOD
SOLICITOR GENERAL
DIVISION OF APPEALS & OPINIONS

ATTORNEY GENERAL

September 21, 2021
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Kotler v. Jubert, et al., No. 21-5527
Dear Mr. Harris:
I write on behalf of respondents Jubert, Dann, Dailey, and Charland to request
an extension of time to oppose the petition for a writ of certiorari in this matter. The
current deadline is September 29, 2021, and respondent respectfully seeks an
extension of thirty days, up to and including Friday, October 29, 2021, to file their
opposition.
Petitioner’s counsel has authorized me to state that petitioner consents to this
request.
Thank you very much for your consideration.
Respectfully submitted,
Barbara D. Underwood
Solicitor General
cc:

Tadgh Dooley, Esq.
Wiggin and Dana LLP
One Century Tower
P.O. Box 1832
New Haven, CT 06508
Counsel for Petitioner

28 LIBERTY STREET, NEW YORK, NY 10005-1400 • PHONE (212) 416-8020 • FAX (212) 416-8962 *NOT FOR SERVICE OF PAPERS
WWW.AG.NY.GOV

